                                    SOCIAL SECURITY

MEMORANDUM

Date:   March 27, 2002                                                    Refer To:

To:     Jo Anne B. Barnhart
        Commissioner of Social Security

From:   Inspector General

Subject: Performance Measure Review: The Social Security Administration’s Transition
        Planning (A-02-01-11014)


        Following consultations with congressional committees, the Office of the Inspector
        General agreed to review the Social Security Administration’s performance indicators
        over a continuous 3-year cycle. We recently completed our first 3-year cycle. In
        conducting this work, we used the services of an outside contractor,
        PricewaterhouseCoopers, LLP (PwC), to assist us in our efforts.

        For this report, we used PwC to conduct the review of two of the Agency’s performance
        indicators related to its transition planning. The objective of the review was to assess
        the reliability of the data used to measure the Agency’s transition planning efforts.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                       James G. Huse, Jr.

        Attachment
            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


   PERFORMANCE MEASURE REVIEW:
        THE SOCIAL SECURITY
    ADMINISTRATION’S TRANSITION
             PLANNING

     March 2002       A-02-01-11014



EVALUATION REPORT




                  .
                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
  o   Promote economy, effectiveness, and efficiency within the agency.
  0   Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
  0   Review and make recommendations        regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
  0   Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
Evaluation of Selected Performance
Measures of the Social Security
Administration:

SSA’s Transition Planning

Office of the Inspector General
Social Security Administration
INTRODUCTION

This report is one of five separate stand-alone reports, corresponding to the following
Social Security Administration (SSA) process and performance measures (PM):

q   Create Agency change strategy. (PM #9)

       Fiscal Year (FY) 2000 Goal: Develop and implement change strategy.

q   Complete Agency plan for transitioning to the workforce of the future. (PM #10)

       FY 2001 Goal: Implement and update Agency transition plan, and develop and
       implement action items from employee survey.

This report reflects our understanding and evaluation of the process related to PMs #9
and #10. To achieve its strategic goal, “To be an employer that values and invests in
each employee,” SSA has developed several strategic objectives. Two of these
objectives are 1) “Promote an Agency culture that successfully incorporates our values,”
and 2) “Create a workforce to serve SSA’s diverse customers in the twenty-first century.”
SSA’s FY 2001 Annual Performance Plan (APP) contains two performance indicators
developed to meet this objective as follows:

q   Create Agency change strategy - Created to meet SSA objective to, “Promote an
    Agency culture that successfully incorporates our values.” This indicator will be
    considered achieved if SSA develops and implements a strategy for change.

q   Complete Agency plan for transitioning to the workforce of the future - Created to
    meet SSA objective to “Create a workforce to serve SSA’s diverse customers in the
    twenty-first century.” This indicator will be considered achieved if SSA completes an
    employee survey and publishes an Agency workforce transition plan.

We performed our testing from September 21, 2000 through February 15, 2001. Our
engagement was limited to testing at SSA’s headquarters in Woodlawn, Maryland. The
procedures that we performed were in accordance with the American Institute of
Certified Public Accountants’ Statement on Standards for Consulting Services, and are
consistent with appropriate standards for performance audit engagements in
Government Auditing Standards (Yellow Book, 1994 version). However, we were not
engaged to and did not conduct an audit, the objective of which would be the expression
of an opinion on the reliability or accuracy of the reported results of the performance
measures evaluated. Accordingly, we do not express such an opinion.




                                            1
Performance Measure # 9 - Create Agency change strategy.


BACKGROUND

SSA's FY 2000 APP contains performance indicators related to its strategic goal to be
an employer that values and invests in each employee. The resulting strategic objective
is to promote an agency culture that successfully incorporates SSA values. The
performance indicator, designated to track organizational progress made towards the
goal of valuing and investing in each employee, is the creation of a change strategy that
would instill the desired values. Nine desired values are listed in SSA’s FY 2001 APP as
follows:

q   To treat every individual with equal regard and respect;

q   To act with integrity;

q   To imbue quality in all we do and help others do the same;

q   To remember that courtesy and compassion mean everything;

q   To listen carefully and to act on what we hear;

q   To respect stability and embrace change, keeping what works and changing what
    could work better;

q   To value diversity;

q   To discharge faithfully our role as guardians of the public trust; and

q   To act with this thought in mind, to millions of people, we are “the government.”

To fulfill this strategic goal and objective, SSA needed to ascertain the current values
and culture of SSA and determine if gaps existed between the current values and the
desired values. The Office of Workforce Analysis (OWA) within the Office of Human
Resources (OHR) was tasked with developing a plan to achieve this objective.

OWA developed a plan that included four major process steps as follows:

1) Perform a baseline study of the current culture;

2) Conduct a gap analysis between the current culture and the desired culture;

3) Conduct a benchmarking study to see how the best organizations measure their
   success in this area; and

4) Design and implement a change strategy to get to the desired agency culture.

Below is a brief description of the four major process steps taken by SSA to achieve its
goal of developing and implementing an agency change strategy.



                                              2
1. Perform a baseline study of the current culture.

To perform a baseline study of the agency culture, SSA researched the topic of
organization culture based on well-known and respected sources in the field.1 In
addition, SSA followed standard qualitative data collection methods in order to develop
an approach to discovering its culture and validating findings.

SSA also hired two external consultants to help it establish what it would need to
accurately document its own culture. This research enabled SSA to define the meaning
of culture for its own organization and to determine the particular constructs it needed to
measure to obtain an accurate assessment of its culture.

Based on this research SSA identified three core cultural themes:

q   Building confidence in SSA;
q   Providing world-class service; and
q   Creating a supportive work environment.

Appropriately, the OWA team then presented these three core themes to individuals and
groups of SSA employees and managers for validation. The findings from these
employee interviews, focus groups, and document reviews, formed the basis for the
development of survey questions.

2. Conduct a gap analysis between the current culture and the desired culture.

To conduct the analysis, SSA developed an employee survey. Employees were asked
to rate their level of agreement with 67 statements related to workplace behaviors and
practices (Section A), values (Section B), and work climate (Section C) for the current
SSA environment and also how important the behavior or practice was to them. The
survey included a demographics section that allowed the results to be cross-tabulated by
region, regional component, grade level, years of service, age, gender, etc.

Section B specifically asked respondents to give their opinion on the nine values listed in
the 1997 Agency Strategic Plan (ASP). The inclusion of these nine values was
especially important, since it was the first time SSA employees had been asked about
their opinion of the ASP values. The inclusion of these values allows SSA to build a
more direct measurement from the ASP, APP, and the Government Performance and
Results Act of 1993, in general.

The survey was administered by mail and sent to a randomly selected 20 percent of the
total SSA employee population (13,600). A cover letter was included with the survey
from the Deputy Commissioner of Human Resources. It stressed that responses would
be kept confidential and that an outside group would be collecting and tabulating the
survey results. The survey was also sent to all 128 members of the SSA Senior Staff.
The response rate for the employee survey was 48.5 percent and 51 percent for the
Senior Staff.

1
 Organizational Culture sources used by SSA: Organizational Culture & Leadership by Edgar
Schein 1992; and Corporate Cultures by Terrence Deal and Allan Kennedy, 1982.


                                             3
Survey results were analyzed by taking the means of each current and desired
workplace statement and identifying the top ten highest ratings, lowest ratings, and the
gaps between the two groups. The employee, mid-level manager, and Senior Staff
responses were also compared.

The following items were identified as the top ten gaps:

q   Gap 1: Having an appraisal system that supports clear and challenging performance
    standards.

q   Gap 2: Rewarding individuals for good work.

q   Gap 3: For employee opinions to count.

q   Gap 4: Having job advancement opportunities available.

q   Gap 5: Sharing work responsibilities fairly.

q   Gap 6: Effectively recruiting and selecting new employees who are motivated and
    well-matched to their jobs.

q   Gap 7: Treating every individual with equal regard and respect.

q   Gap 8: Rewarding good teamwork.

q   Gap 9: Delivering training in a timely and effective manner.

q   Gap 10: Resolving conflicts in positive ways.

3. Conduct a benchmarking study to see how the best organizations measure
   their success in this area.

A benchmarking study was conducted to see how other organizations carry out a culture
change effort. Thirty-seven organizations were selected for the benchmarking study (25
private and 12 public organizations). Eleven organizations ultimately participated in the
study by responding to a survey; four of the eleven allowed SSA to conduct site visits. A
conference call was conducted with a fifth benchmark partner. The results of the
benchmarking study provided SSA with comparisons and ideas that could be
implemented for their own culture change effort.

SSA found that most Government agencies responding to their best practice survey
were not willing to share the details of their culture change efforts and found that those
that did showed little evidence of change.

4. Design and implement a change strategy to get to the desired agency culture.

SSA formed an intercomponent workgroup (OCW) to examine the results of the culture
survey and formulate a change strategy plan. The group included members from all
relevant SSA stakeholders. While the 10 gaps found between the current and desired




                                             4
SSA cultures formed the basis for SSA’s change strategy plan; OCW also examined
other sources of information relevant to the assessment of SSA culture as follows:

q   The results of the 1999 SSA employee survey conducted by the National Partnership
    for Reinventing Government;

q   Other current SSA initiatives that will influence organizational culture, such as the
    2010 Vision;

q   The results of the employee interviews;

q   The results of the benchmarking studies; and

q   The results of brainstorming and discussion sessions.

The OCW analyzed and categorized the 10 gaps into 3 groups: performance
management, communications, and empowerment. The recommendations were
categorized as follows:

q   Theme #1: Create a comprehensive performance management system.

q   Theme #2: Promote greater communication throughout SSA.

q   Theme #3: Empower Individuals/Offices/Components/Agency.




                                              5
RESULTS OF EVALUATION

During the period of September 21, 2000 to February 15, 2001, we evaluated the current
processes and controls, which support the FY 2000 SSA performance measurement
process. In addition, we determined the accuracy of the underlying performance
measure data. Our evaluation of the information provided by SSA management as of
February 15, 2001 allowed us to determine that the reported FY 2000 results of the
performance measure tested (shown below) were reasonably stated based on the
methodology used by SSA.

       Performance Measure                                               Reported Result


 9. Create Agency change strategy                              Change strategy created

OWA has completed the four major steps and identified short- and long-term
recommendations for SSA to help achieve its goal of becoming an employer that values
and invests in each employee. We evaluated the approach that SSA has taken to study
its culture and found that SSA’s overall strategy to change its organizational culture is
based on solid research principles. We determined that SSA undertook a thorough
effort to fully understand the theory and practice behind the study of organization culture
and to define the characteristics of its own culture.

In addition, we found that the employee survey SSA developed was based on strong
research and literature related to the measurement of organizational culture and used
appropriate survey development standards. However, we did note the following
opportunities for improvement in SSA methodology:

1. SSA has not assigned specific responsibility for implementing recommendations.
2. Cultural themes are not a direct measure of the culture.
3. Survey sections were not directly “mapped” to SSA’s values.

1. SSA has not assigned specific responsibility for implementing
   recommendations.

The change strategy is embodied within OCW’s short- and long-term recommendations,
but specific responsibility for implementing these recommendations has not yet been
assigned. SSA stated that it is currently awaiting approval of the strategy from senior
management. However, assignments have not been identified within the document. Not
assigning specific recommendations to particular individuals or offices will result in a lack
of accountability mechanisms within the organization to help support these change
initiatives.

2. Cultural themes are not a direct measure of the culture.

We found that the three cultural themes are consistent with the tenor of the nine APP
values. However, the cultural themes are not a direct measurement of the culture.
Specifically, it is not clear how the survey sections and subsequent questions are directly
“mapped” or cross-walked to these three core cultural themes.


                                             6
3. Survey sections were not directly “mapped” to SSA’s values.

Sections A and C of the survey were not directly “mapped” to the APP values as found in
Section B. If Sections A and C could be mapped by group or category to the nine APP
values, it would allow SSA to build a more direct measurement from the APP and GPRA
in general. By mapping or grouping the nine values against Section A and C, it would be
possible statistically to conduct factor analysis2 and obtain factor groupings. This
analysis would provide a way to measure the nine APP values and see how they group
or correlate to Sections A and C statistically. This analysis would help SSA to further
define the areas where they need culture change and action plans.

CONCLUSIONS AND RECOMMENDATIONS

Our evaluation found that OWA has completed the implementation process of this
performance measure. OWA completed four major steps of developing and
implementing a strategy by performing a baseline study, a gap analysis, a benchmark
study, and identified short- and long-term recommendations for SSA to implement.
However, SSA has not assigned responsibility for implementing recommendations.

1) We recommend that SSA assign specific responsibility to individuals or organizations
   for developing a plan to accomplish these recommendations and establish interim
   performance measures to track the effects of individual recommendations.

2) We recommend a more direct grouping of questions to these three core cultural
   themes, so that they can be validated and measured directly.

3) We recommend that SSA consider grouping related questions of the survey
   (Sections A and C) into factors that map to the nine APP values.

For example, the questions could be grouped into sections mapping to employee
performance, agency pride, diversity, customer satisfaction, management assessment,
etc. By creating groups or categories of questions, SSA would have the ability to create
factor groupings and perform additional analysis generating results that would be useful
in building a more direct map to the APP values.

OTHER MATTERS

As part of this evaluation, we identified several less significant matters that are
peripheral to this engagement that SSA should also consider. These points are
discussed below.

SSA benchmarking study did not include enough public organizations.

SSA did not include a great deal of literature pertaining specifically to public
organizations in its research review. When benchmarking culture to make appropriate
comparisons, it is important to find similar organizational characteristics by function, size,
or sector. Because SSA delivers unique services in a public setting and is under public
scrutiny, SSA should find similar cultures for best practice comparison.

2
    Factor analysis is a correlation coefficient technique.



                                                          7
Recommendations

4) We recommend that SSA include more public sector culture studies and research in
   their literature review and best practice research and research other government
   organizations delivering similar services, such as the equivalent of SSA in Canada,
   England, and France.

5) Additionally, while public and private sector organizations share many
   characteristics, SSA may want to consider the inclusion of research related to the
   study of public sector organizational culture (e.g., Rainey, 1991, Understanding and
   Managing Public Organizations).

Survey respondents could be biased.

Excluding Senior Staff, less than half (48.5 percent) of the sampled employees
responded. It is possible, in this situation, that SSA obtained very precise results for a
biased subset of the total population. In other words, those who responded to the
survey may be more positive or negative towards SSA than those who did not respond.

SSA sampled a very large portion of its population (20 percent or 13,600) unnecessarily.
Depending on the required level of precision required in the estimate, SSA could have
sampled fewer cases. For example, with a sample size of 13,600, an estimate of the
percent of the population having a particular characteristic would be within less than one
percentage point of the actual value. Whereas, selecting a sample of about 2,500
employees, an estimate of the same quantity would be within about two percentage
points of the actual value. The smaller sample size produces an estimate that would
certainly be reasonable for most decision-making situations at a much lower cost to
SSA. Generally, the reasoning behind selecting such a large sample is that great
variability is known to exist within the total population.

Recommendation

6) We recommend that in the future SSA select a smaller sample (1,000 or 2,000
   cases) and expend more resources to obtain a high response rate for that smaller
   sample.

Organizations selected for benchmarking study may not be appropriate.

It is not clear how SSA initially selected the 37 organizations for the benchmarking study
and why more private than public organizations were chosen. As stated previously,
when benchmarking other organizations for comparison purposes or best practice
behavior, example organizations should have similar characteristics for the most valid
and appropriate comparison.

Recommendation

7) We recommend that the benchmarking organizations be chosen due to their
   similarity in the desired culture, size, sector, purpose, and organizational structure to
   obtain the best possible comparisons.



                                             8
Benchmarking study may have not been necessary.

Rather than expending its resources performing a benchmarking study, SSA may have
obtained more useful information if it had searched for best practice Government
agencies that have undertaken successful culture change efforts. SSA had already
obtained a great deal of research from its contractor on culture change efforts but little
information on other Federal organizations subject to GPRA who had embarked on
culture change goals.

Recommendation

8) We recommend that in the future SSA benchmark itself against other government
   organizations specifically under GPRA guidelines that have included culture change
   or change strategy goals in their APP.

This way, SSA may be able to gain helpful information from other federal organization’s
performance indicators monitoring cultural change.




                                             9
Performance Measure # 10 – Complete Agency plan for transitioning to the
workforce of the future

BACKGROUND

SSA's FY 2000 APP contains performance indicators related to its strategic goal to be
an employer that values and invests in each employee. The resulting strategic objective
is to create a workforce to serve SSA’s diverse customers in the twenty-first century.
The resulting performance indicator to track achievement towards this goal is to
complete SSA’s plan for transitioning to the workforce of the future. The FY 2001 goal is
to implement and update the transition plan and develop and implement action items
from the employee survey.

Implement and update the transition plan.

To fulfill SSA’s Strategic Plan of creating a workforce to serve SSA’s diverse customers
in the 21St century, SSA developed a 5-year workforce transition plan. The plan was
developed with input from all SSA components and its labor and management
organizations. The plan was based on:

q   What SSA expects to happen in the future; what the effects of the future will have on
    SSA’s workforce needs;

q   What actions will be taken to address SSA’s workforce needs.

SSA based the development of its workforce plan on the following components:

1) projected attrition analysis, 2) predicted succession flow for major SSA occupations,
and 3) factors to be considered for future updates. SSA performed a workforce analysis
to ascertain its current capabilities and expected needs based on these three
components. The expectations of the future came from well-respected and legitimate
sources such as the Census Bureau, the Office of Personnel Management and the
analysis of its own Agency history of personnel trends.

SSA identified five major issues to be addressed by its workforce transition plan:

1) SSA needs to improve the process for projecting its workforce needs and for
   planning how to meet them to allow adequate time for recruiting and training;

2) SSA needs to recruit new employees that reflect the diversity of its customers, with
   the necessary competencies and who will stay long enough to give a return on
   investment;

3) SSA needs to fully develop and utilize its employees and provide them with the
   necessary tools and training;

4) SSA needs to provide a work environment and an organizational culture that
   supports employees and enables them to provide world-class customer service; and

5) SSA needs to explore additional avenues for meeting its future workforce needs.



                                            10
SSA’s plan was comprised of the following items:

q   Description of workforce planning issue,
q   Action items to address issues,
q   Milestones to track progress of each issue,
q   Lead office responsible, and
q   Target completion dates.

Each of these items is appropriately explained and the milestones are appropriate
actions needed to address each workforce planning issue. To increase manageability
and accountability, SSA has assigned a lead office responsible for each action item.

Develop and implement action items from the employee survey

SSA has recently administered a pilot of its employee survey (January 16-February 2,
2001) and the analysis of the survey data is in process. An official SSA report has not
yet been released on the status of this strategic goal.

The purpose of conducting the employee survey is to assess current levels of
satisfaction with job and work environment. Once the data is collected, SSA will have
the knowledge to help make SSA a better place to work. The information gathered from
the survey will help SSA to meet its Strategic Objective to “create a workforce to serve
SSA’s diverse customers in the twenty-first century.”

The intended steps for administering a pilot employee survey are listed below. SSA has
completed the first five steps.

1. Provide a validated survey instrument grounded in sound statistical research;

2. Conduct a pre-survey publicity and communications campaign to maximize
   employee interest and participation;

3. Print and distribute all survey materials;

4. Administer the survey using a blend of machine scorable questionnaires, toll-free
   interactive phone responding, internet/intranet methodology and/or any other
   appropriate survey response mechanism;

5. Take appropriate steps to ensure a minimum response rate of 75 percent;

6. Conduct train-the-trainer sessions on how to teach managers/supervisors to analyze
   and use the survey findings for the development of action plans to improve
   satisfaction;

7. Provide an in-depth written analysis of the overall survey results with specific
   recommendations for next steps SSA should consider based on these results;

8. Conduct executive level briefings on overall findings;



                                                11
9. Generate feedback reports to Headquarters covering consolidated results for the test
   sites;

10. Provide feedback reports to all survey participants covering the findings for their
    individual work units at the lowest level of supervision; and

11. At the conclusion of the full process test, SSA will conduct an internal evaluation to
    determine the advisability of proceeding with a full implementation, across SSA.

RESULTS OF EVALUATION

During the period of September 21, 2000 to February 15, 2001, we evaluated the current
processes, systems and controls, which support the FY 2000 SSA performance
measurement process. In addition, we determined the accuracy of the underlying
performance measure data. Our evaluation of the information provided by SSA
management as of February 15, 2001 allowed us to determine that the reported FY 2000
results of the performance measure tested (shown below) were reasonably stated.

                     Performance Measure                               Reported Result


 10. Complete Agency plan for transitioning to the workforce       Agency transition plan
 of the future.                                                    published


We have evaluated SSA’s approach to creating its workforce transition plan and found
that SSA has completed the plan and provided a well-thought out strategy to implement
the transition plan and to meet its diverse workforce needs. We found that SSA
performed its analysis based on standard workforce analysis procedures and reasonable
assumptions of the future.

In addition, our evaluation of the questions and structure of the employee survey for the
process test and have found it to be a well-researched and tested survey instrument.
SSA has chosen a reliable metric that can be benchmarked and also has the option of
adding three additional questions to the employee survey. We found that the
development and implementation of the SSA employee survey process test is
proceeding according to schedule and appears to be on-target for meeting its goal of
improving SSA work environment.

CONCLUSIONS AND RECOMMENDATIONS

Given the nature of long-range planning and unpredictability of the future, we found
SSA’s approach to be reasonable.

9) We recommend that SSA continue to monitor its workforce planning issues and
   make changes to the workforce plan quarterly, or as needed.




                                             12
APPROPRIATENESS OF THE PERFORMANCE MEASURES

As part of this engagement, we evaluated the appropriateness of each of the
performance measures with respect to GPRA compliance and SSA’s APP. To do so, we
determined whether the specific indicators and goals corresponded to the strategic goals
identified in SSA’s APP, determined whether each of these indicators accurately
measure performance, and determined their compliance with GPRA requirements.

PM #9 and PM #10 do not meet the full intent of GPRA and are therefore not adequate
GPRA performance measures. Both are actually means and strategies by which SSA
may achieve their Goal #4, “To be an employer that values and invests in each
employee.” According to the Office of Management and Budget (OMB) Circular A-11
Preparation and Submission of Budget Estimates, “The annual plan includes a
description of resources, processes, and technologies required to achieve the
performance goals and indicators. These are means (in many instances, inputs) the
agency will employ….”3 If one reads the description of the two performance
measurements in SSA’s FY 2000 Performance and Accountability Report, one would get
a synopsis of processes, not a description of a performance goal or indicator.

In both cases, SSA could develop means-type goals to measure their effectiveness at
meeting their strategic objective to “Promote an Agency culture that successfully
incorporates our values.” For example, SSA should develop measures to gauge their
effectiveness at transforming Agency culture or attaining the workforce profile that they
desire. These current PMs would then become the means and strategies by which SSA
could achieve its means-type goals for his objective.

Performance Measure #9 aligns logically with the SSA Strategic Plan but is not a
GPRA performance measure.

The relationship between PM #9 and the applicable SSA Strategic Goal is depicted in
the following figure:




3
    OMB Circular A-11 Preparation and Submission of Budget Estimates section 220.11.



                                                    13
                                     SSA Mission
                  To promote the economic security of the nation's people
                 through compassionate and vigilant leadership in shaping
                     and managing America's social security programs.




                                  Strategic "Goal #4"
                        To be an employer that values and invests
                                   in each employee




                                  Strategic Objective
                       Promote an Agency culture that successfully
                                incorporates our values




                            Performance Indicators & Goals
                           #9 Create Agency change strategy to
                                      instill values




SSA’s mission is supported by five strategic goals, including Goal #4, “To be an
employer that values and invests in each employee.” Goal #4, in turn, is supported by
several strategic objectives, including the relevant objective dealing with SSA’s culture,
“Promote an Agency culture that successfully incorporates our values.” PM #9 indicates
whether or not SSA creates a strategy to instill values. The diagram indicates that PM
#9 and its corresponding activities logically align with SSA’s strategic planning process.

Based on the taxonomy of performance measures included in Appendix F, PM #9 is a
measure of accomplishment because it reports on a result (strategy created) achieved
with SSA resources. It is further categorized as an output measure because it indicates
the quantity (zero or one) of a service provided (creation of a strategy).

Within the framework of GPRA, PM #9 technically fits the definition of an output
measure because it is “…a description of the level of activity or effort that will be
produced or provided over a period of time or by a specified date….” However, this
metric does not meet the intent of GPRA and could be improved as follows.




                                            14
Ideally, a performance metric should help SSA take action and affect the performance of
the indicator being measured. In this case, the metric is binary because it provides a
yes or no answer. This provides limited information for planning action, other than the
knowledge that a goal may or may not have been met.

The metric does not promote an adequate and correct understanding of the subject
area. It is true that developing the change strategy supports the objective of, “promoting
an agency culture that successfully incorporates our values.” However, the metric is
focused on whether or not a change strategy has been created, not the quality or
suitability of the strategy or the progress made in achieving the strategy.

Ideally, a performance metric should allow SSA to track progress over time. However,
this is not possible with a binary metric of this nature. The performance goal for this
particular metric is a 1-time occurrence—create and implement the strategy. As a result,
this measure, as designed, does not provide an indication of incremental progress.

The completed and planned activities related to this measurement are valid and
necessary for achieving SSA’s strategic objective, to “Promote an Agency culture that
successfully incorporates our values.” Furthermore, the agency change strategy should
be created and implemented. However, the subject measurement is not useful and
should be revised to support the cultural change effort.

Recommendations

10) SSA should eliminate PM #9 from its GPRA strategic planning effort and replace it
    with metrics that help to (a) indicate the quality of the change strategy, and
    (b) quantify the progress made in achieving that strategy over time.

11) In addition, the measurement system should be designed to help SSA managers
    take appropriate action to ensure the success of the cultural change effort.

Overall, SSA’s approach to measuring Agency culture is worthwhile and should be
continued.

12) To better meet GPRA requirements, SSA should develop measures that qualitatively
    and quantitatively measure employees’ perspectives of their workplace environment.

Performance Measure #10 aligns logically with SSA’s Strategic Plan, but is not a
direct link to measuring if SSA is becoming an employer that creates a workforce
to serve SSA's diverse customers in the 21st century.

The relationship between PM #10 and the applicable SSA Strategic Goal is depicted in
the following figure:




                                            15
                                           SSA Mission
                       To promote the economic security of the nation's people
                      through compassionate and vigilant leadership in shaping
                          and managing America's social security programs.




                                       Strategic "Goal #4"
                             To be an employer that values and invests
                                        in each employee




                                       Strategic Objective
                             Create a workforce to serve SSA's diverse
                                   customers in the 21st century




                                  Performance Indicators & Goals
                                    #10 Complete Agency plan for
                                 transitioning to the workforce of the
                                                 future




The SSA mission is supported by five strategic goals, including Goal #4, “To be an
employer that values and invests in each employee.” Goal #4, in turn, is supported by
several strategic objectives, including the relevant objective of “creating a workforce to
serve SSA's diverse customers in the 21st century.” The diagram indicates that PM #10
and its corresponding activities logically align with SSA’s strategic planning process.

Based on the taxonomy of performance measures included in Appendix F, PM #10 is a
measure of accomplishment because it reports on a result (workforce plan created)
achieved with SSA resources. It is further categorized as an output measure because it
indicates the quantity (zero or one) of a service provided (creation of a workforce plan).

Within the framework of GPRA, PM #10 technically fits the definition of an output
measure because it is “…a description of the level of activity or effort that will be



                                               16
produced or provided over a period of time or by a specified date.…” However, this
metric does not meet the intent of GPRA.

Ideally, a performance metric should help SSA to take action and affect the performance
of the indicator being measured. In this case, the metric is binary because it provides a
yes or no answer. This provides limited information for planning action, other than the
knowledge that a goal may or may not have been met.

The metric does not promote an adequate and correct understanding of the subject
area. It is true that completing SSA’s plan for transitioning to the workforce of the future
supports the objective to “create a workforce to serve SSA's diverse customers in the
21st century.” However, the metric is focused on whether or not a workforce plan has
been created, not the quality or suitability of the plan or the progress made in achieving
the plan.

Ideally, a performance metric should allow SSA to track progress over time. However,
this is not possible with a binary metric of this nature. The performance goal for this
particular metric is a 1-time occurrence—create and implement the workforce plan. As a
result, this measure, as designed, does not provide an indication of incremental
progress.

Recommendation

13) We recommend that SSA monitor the action items and milestones specified in the
    workforce plan as the performance indicator of whether SSA is creating a workforce
    to serve SSA's diverse customers in the 21st century.

The workforce plan describes the method SSA can use to achieve this strategic
objective, but it is not appropriate for measuring if SSA has implemented its plan and is
achieving the goals of the plan.

Agency Comments

Of the 13 recommendations contained in this report, SSA agreed with 8, disagreed
with 1, and deferred comments on 4 of the recommendations pending Agency action on
the OCW report. The Agency disagreed with the recommendation that it select a smaller
sample size and expend more resources to obtain a high response rate for that smaller
sample when surveying its employees on SSA’s culture. It deferred on four
recommendations that called for changes to the questionnaire used to survey its
employees. Please see Appendix C for the full text of the Agency’s Comments.

OIG Response

We appreciate SSA’s comments to this report. The implementation of the
recommendations contained within this report will help to ensure for the better
measurement of SSA’s culture and its ability to transition its workforce to meet the needs
of citizens in the future. We continue to recommend that SSA revisit the size of the
sample it used when surveying its employees on its culture. SSA had a sample of over
13,000 employees and a response rate below 50 percent. In future surveys, SSA should
spend less of its resources on administering a very large sample of employees and more



                                             17
of its resources on ensuring that an adequate number of those sampled actually respond
to the survey.

We understand the Agency’s desire to defer its response to four recommendations
pending action on the OCW report. We will continue to track these recommendations
and look forward to the Agency’s response to them in the near future.




                                         18
                           APPENDICES

APPENDIX A – Scope and Methodology

APPENDIX B – Acronyms

APPENDIX C – Agency Comments

APPENDIX D – Performance Measure Summary Sheets

APPENDIX E – Performance Measure Process Maps

APPENDIX F – Performance Measure Taxonomy
                                                                         Appendix A
                        SCOPE AND METHODOLOGY

The Social Security Administration (SSA) Office of the Inspector General contracted
PricewaterhouseCoopers, LLP (PwC) to evaluate 11 SSA performance indicators
identified in its Fiscal Year 2001 Annual Performance Plan (APP). We performed our
testing from September 21, 2000 through February 15, 2001.

Our engagement was limited to testing at SSA’s headquarters in Woodlawn, Maryland.
The procedures that we performed were in accordance with the American Institute of
Certified Public Accountants’ Statement on Standards for Consulting Services, and are
consistent with appropriate standards for performance audit engagements in
Government Auditing Standards (Yellow Book, 1994 version). However, we were not
engaged to and did not conduct an audit, the objective of which would be the expression
of an opinion on the reliability or accuracy of the reported results of the performance
measures evaluated. Accordingly, we do not express such an opinion.

For these two performance indicators, PwC was asked to assess SSA’s progress to date
in the implementation process, and evaluate if SSA has the capacity to effectively
complete the implementation process.

1. Create Agency change strategy (PM #9)

In order to assess SSA’s progress to date in the implementation process and
evaluate if SSA has the capacity to effectively complete the implementation, we
obtained an understanding of the underlying process and procedures
surrounding the implementation of the measure through interviews and meetings
with the appropriate SSA personnel. In addition, we reviewed and evaluated the
following:

q   “Organizational Culture Project: Final Report,” May 2000.

q   Memo entitled “Organizational Culture Workgroup Recommendations,”
    October 18, 2000.

q   SSA Performance Plan for FY 2000.

q   SSA Performance Plan for FY 2001, Revised Final Performance Plan for FY 2000.

q   SSA 2000-2005 Strategic Plan “Mastering the Challenge.”

2. Complete Agency plan for transitioning to the workforce of the future (PM #10)

We reviewed and evaluated the following documents to gain an understanding of the
processes used to create the workforce plan and the pilot employee survey.

q   “Workforce Planning at the Social Security Administration,” February 2000.

q   Memo entitled “ Future Workforce Transition Plan—ACTION,” June 5, 2000.


                                          A-1
                                                                         Appendix A
q   Memo entitled “Quarterly Status Report on SSA’s Future Workforce Plan—
    INFORMATION,” November 28, 2000.

q   SSA Performance Plan for FY 2000.

q   SSA Performance Plan for FY 2001, Revised Final Performance Plan for FY 2000.

q   SSA 2000-2005 Strategic Plan “Mastering the Challenge.”

q   SSA Employee Survey RFQ, released August 2000.

q   Pilot Employee survey.

3. Determined whether both performance measures were meaningful and in
   compliance with the Government Performance and Results Act of 1993.

As part of this engagement, we evaluated the appropriateness of each of the
performance measures with respect to GPRA compliance and SSA’s APP. To do so, we
determined whether the specific indicators and goals corresponded to the strategic goals
identified in SSA’s APP, determined whether each of these indicators accurately
measure performance, and determined their compliance with GPRA requirements.




                                          A-2
                                                Appendix B

                          ACRONYMS

APP    Annual Performance Plan
ASP    Agency Strategic Plan
FY     Fiscal Year
GPRA   Government Performance and Results Act
OCW    Organizational Culture’s Workgroup
OHR    Office of Human Resources
OWA    Office of Workforce Analysis
PM     Performance Measure
PwC    PricewaterhouseCoopers LLP
SSA    Social Security Administration
                  Appendix C
AGENCY COMMENTS
                                                       ~ SEc:v
                                                      ~(;~
                                                     .5?/f/ts~~
                                                     \~ II1III1~!
                                                        "'JsTV

                                         SOCIAL         SECURITY


MEMORANDUM


           December 18,2001                                                    Refer To:   SIJ-3

To:        James G. Ruse, Jr.
           Inspector General

           Larry Dye
           Chief of Staff
                            ~~
                                         J1r-
Subject:   Office of the Inspector General (OIG) Draft Report, "Perfomlance Measure Review: The Social
           Security Administration's Transition Planning" (A-O2-0l-ll0l4)-INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the report content
           and recommendations are attached.

           Staff questions can be referred to Laura Bell on extension 52636.

           Attachment:
           SSA Response
                                                                            Appendix C
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “PERFORMANCE MEASURE REVIEW: THE SOCIAL SECURITY
ADMINISTRATION’S TRANSITION PLANNING)” A-02-01-11014

We appreciate the opportunity to comment on the draft report. Overall, we found value
in the report contents and recommendations. At this time, we are deferring comments on
recommendations 2, 3, 4, and 5, pending agency action on the Organizational Culture’s
Workgroup (OCW) report. Our comments on the remaining recommendations follow.

Recommendation 1

Assign specific responsibility to individuals or organizations for developing a plan to
accomplish these recommendations and establish interim performance measures to track
the effects of individual recommendations.

Comment

We agree that specific responsibility should be assigned to ensure accountability. Once
Agency action is taken on the OCW report, we will work with appropriate executives and
staffs to assure accountability. We will also consider using the framework provided by
the Agency’s Annual Performance Plan (APP) to track and measure our progress in
implementing the recommendations.

Recommendation 2

Group more directly questions to the three core cultural themes, so that they can be
validated and measured directly.

Comment

It is premature to respond to this recommendation pending agency action on the OCW
report.

Recommendation 3

Consider grouping related questions of the survey (Sections A and C) into factors that
map to the nine APP values.

Comment

See response for recommendation #2.

Recommendation 4

Include more public sector culture studies and research in the literature review and best
practice research and research other government organizations delivering similar
services, such as the equivalent of SSA in Canada, England, and France.
                                                                            Appendix C
Comment
See response for recommendation #2.

Recommendation 5

Consider the inclusion of research related to the study of public sector organizational
culture (e.g., Rainey, 1991, Understanding and Managing Public Organizations).

Comment

See response for recommendation #2.

Recommendation 6

Select a smaller sample (1,000 or 2,000 cases) and expend more resources to obtain a
high response rate for that smaller sample.

Comment

We disagree with this recommendation. The survey was designed so that it could be
broken down into various components (field, systems, etc.) for further analysis. Given
the size and organizational structure of SSA, this would not be possible with a smaller
sample.

Recommendation 7

Choose benchmarking organizations due to their similarity in the desired culture, size,
sector, purpose, and organizational structure to obtain the best possible comparisons.

Comment

We agree, and will choose benchmarking organizations based on desired similarities.

Recommendation 8

Benchmark the Agency against other government organizations specifically under GPRA
guidelines that have included culture change or change strategy goals in their APP.

Comment

We agree. If the decision is made to benchmark again, we will include government
organizations that have included these items in their APP and are willing to participate in
benchmarking.
                                                                         Appendix C
Recommendation 9

Continue to monitor its workforce planning issues and make changes to the workforce
plan quarterly, or as needed.

Comment

We agree. We will continue to monitor our progress on the action items documented in
the plan through our existing quarterly updates. As changes occur, appropriate
amendments will continue to be made.

Recommendation 10

Eliminate PM#9 from the GPRA strategic planning effort and replace it with metrics that
help to indicate the quality of the change strategy and quantify the progress made in
achieving that strategy over time.

Comment

We agree. Quantifiable action items from the Agency Transition Plan are being included
in the Agency’s Annual Performance Plan. However, the creation of performance
measures related to a change strategy is contingent upon agency approval of the OCW
recommendation to develop a change strategy.

Recommendation 11

Design the measurement system to help Agency managers take appropriate action to
ensure the success of the cultural change effort.

Comment

We agree, and as measures can be developed, they should be designed to help managers
take appropriate action toward a successful change effort. Again, the creation of
performance measures related to a change strategy is contingent upon Agency approval
of the OCW recommendation to develop a change strategy.

Recommendation 12

Develop measures that qualitatively and quantitatively measure employees’ perspectives
of their workplace environment.
                                                                          Appendix C
Comment

We agree. If organizational culture activities continue, we will work with appropriate
executives and staffs, including the Office of Strategic Management, to improve these
measures in accordance with GPRA.

Recommendation 13

Monitor the action items and milestones specified in the workforce plan as the
performance indicator of whether SSA is creating a workforce to serve SSA's diverse
customers in the 21st Century.

Comment

We agree. The Agency’s existing APP, and tracking report system will continue to
provide the framework for monitoring performance at an agency level.
                                     Appendix D


PERFORMANCE MEASURE SUMMARY SHEETS
                                                                                                                                Appendix D
                                   PERFORMANCE MEASURE SUMMARY SHEETS


Name of Measure                                         Measure Type                  Strategic Goal/Objective
9) Create Agency change strategy                        Output Measure                Goal: To be an employer that values and invests in each
                                                                                      employee.
                                                                                      Objective: Promote an Agency culture that successfully
                                                                                      incorporates our values.
Purpose                                                                                                       Frequency

To achieve the objective SSA will conduct a benchmark analysis to establish a baseline and a strategy for     One Time
change will be developed.
Target Goal                        How Computed                                                               Data Source
Develop and Implement a            This goal will be considered achieved if SSA:                              Employee Survey
strategy                           a) Conducts a benchmark analysis to establish a baseline of                Organizational Culture Project
                                       information about their current culture.                               Organizational Culture
                                   b) Establishes a baseline and develops a strategy for change and           Workgroup
                                       identifies appropriate indicators of progress.
Designated Staff Members                                                   Division
Steve Aprile                                                               HR/OWA
Jaime Fisher




                                                                     D-1
                                                                                                                           Appendix D
Testing and Results

We obtained an understanding of the underlying process and procedures surrounding the implementation of the measure through interviews
and meetings with the appropriate SSA personnel. In addition, to we reviewed and evaluated the following:

§   “Organizational Culture Project: Final Report,” May 2000
§   Memo entitled “Organizational Culture Workgroup Recommendations,” October 18, 2000
§   SSA Performance Plan for FY 2000
§   SSA Performance Plan for FY 2001, Revised Final Performance Plan for FY 2000
§   SSA 2000-2005 Strategic Plan “Mastering the Challenge”

Refer to “Results of Evaluation” for a description of the findings.




                                                                   D-2
                                                                                                                                  Appendix D

Name of Measure                                           Measure Type                  Strategic Goal/Objective
10) Complete Agency plan for transitioning to the                                       Goal: To be an employer that values and invests in each
workforce of the future.                                                                employee.
                                                                                        Objective: Create a workforce to serve SSA’s diverse
                                                                                        customers in the twenty-first century.
Purpose                                                                                                         Frequency

To achieve the objective this indicator will establish milestones for completing an Agency workforce            One Time
transition plan.
Target Goal                                         How Computed                                                Data Source

Implement competency-based models for               This goal will be considered achieved if SSA:               Workforce Planning and
recruitment and training needs assessment           a) Implements competency-based models for                   Transition Plans
                                                        recruitment and training needs assessment.
                                                    b) Completes employee survey.
                                                    c) Publishes an agency transition plan.

Designated Staff Members                                                     Division

Barbara Burdge                                                               OHR
Jean Venable                                                                 OC/OHR
Erik Jones
Michele Noel




                                                                       D-3
                                                                                                                           Appendix D
Testing and Results

We obtained an understanding of the underlying process and procedures surrounding the implementation of the measure through interviews
and meetings with the appropriate SSA personnel. In addition, we reviewed and evaluated the following:

§   “Workforce Planning at the Social Security Administration,” February 2000
§   Memo entitled “ Future Workforce Transition Plan—ACTION,” June 5, 2000
§   Memo entitled “Quarterly Status Report on SSA’s Future Workforce Plan—INFORMATION,” November 28, 2000
§   SSA Performance Plan for FY 2000
§   SSA Performance Plan for FY 2001, Revised Final Performance Plan for FY 2000
§   SSA 2000-2005 Strategic Plan “Mastering the Challenge”

Refer to “Results of Evaluation” for a description of the findings.




                                                                   D-4
                      Appendix E


PERFORMANCE MEASURE
                                                                               Performance Measure # 9
                                                                            Create Agency Change Strategy                                        Appendix E
                        Strategic Objective is to promote
                        agency culture that successfully                                                             OWA in OHR
                        incorporates our values                                 Goal #4 is to be an                assigned lead for        OWA develops plan to
                                                                                employer that values and           developing plan to       perform baseline study
                                                                                invests in each employee.           achieve culture         of current SSA culture
                                                                                                                       objective


  Research general topic of
  organizational culture and
                                          Conduct benchmarking study of
 baseline current SSA culture                                                                                     Develop Agency
                                          other organizations that have              Develop, deploy, and
                                            conducted culture studies                                          change strategy plan to
                                                                                   analyze employee survey
                                                                                                               achieve desired culture
Details:

      :


  Conduct literature review on
   organizational culture and
      define term for SSA                       Identify benchmark                Develop and administer     Create group to look at both
                                          organizations for comparison to          survey questions and      SSA organizational change
                                                        SSA                            sampling plan             strategey and NPR


        Conduct secondary
  research (document reviews)
    into existing SSA material
   and found 3 existing themes                                                                                                                    Develop short-term and long-term
      describing SSA culture                                                       Compile survey results       Examine major gaps                 recommendations to narrow ten
                                                 Perform site visits               (both quantitative and       between current and               gaps and improve culture at SSA
                                                                                        qualitative)              desired cultures



  Hire consultant to help SSA
  determine what needs to be
      measured in culture                                                                                     Analyze gaps and review
                                              Compile findings from                Identify gaps between        other SSA activities
                                             benchmark site visits and              current and desired          influencing culture
                                                    surveys                                culture
       Organize and deploy
   interview teams from every
    major SSA component to
                                                                                                             Determine gaps related to
    ask 1,000 managers, 200
                                                                                                                   performance
     employees about the 3
                                                                                                              management, system
             themes
                                             Develop conclusions from                                          communication, and
                                                     findings                                                     empowerment

  Interview teams and compile
     findings from interviews

                                                                                      E-1
                                                                 Performance Measure # 10
                                                           Complete Agency plan for transitioning to                       Appendix E
                                                                 the workforce of the future


                               Strategic Objective is
                               to create a workforce
                               to serve SSA's                            Goal #4 to be an
                               diverse customers in                  employer that values and
                               the 21st century                      invests in each employee.




    OHR creates plan to             Define vision of SSA            Create workforce transition                      Update workforce transition
transition from workforce of         future workforce                                               Implement Plan
                                                                    plan to meet vision of future                         plan quarterly
today to workforce of future




                                                                    Determine expectations of
                                                                    business trends in next five
                                                                               years




                                                                     Assess effects of trends
                                                                       on SSA workforce




                                                                       Develop actions to be
                                                                      taken to address future
                                                                         workforce needs




                                                                           E-2
                                                                                                                                                                                                Appendix F


                                                                        PERFORMANCE MEASURE TAXONOMY


                                                                                        Categories of Performance Measures:

Efforts are the amount of financial                                                                                                                                                          These indicators measure the
and nonfinancial resources (in                                                                                                                                    3) Measures that           resources used or cost (for
terms of money, material, and so         1) Measures of                                             2) Measures of                                                                           example, in dollars, employee-
forth) that are put into a program                                                                                                                                 Relate Efforts to         hours, or equipment used) per
or process. Measures of service              Efforts                                               Accomplishments                                                                           unit of output. They provide
efforts also include ratios that
                                                                                                                                                                  Accomplishments            information about the production
compare financial and                                                                                                                                                                        of an output at a given level of
nonfinancial resources with other                                             Accomplishment measures report                                                                                 resource use and demonstrate an
measures that may indicate                                                    what was provided and achieved                                                                                 entity's relative efficiency when
potential demand for services,                                                with the resources used.                                                                                       compared with previous results,
such as general population,                                                                                                                                                                  internally established goals and
service population, or lane-miles                                                                                                                                                            objectives, generally accepted
                                                                                              Outputs measure the quantity of services provided;
of road.                                                                                                                                                                                     norms or standards, or results
                                                                                              outcomes measure the results of providing those
                                                                                                                                                                                             achieved by similar jurisdictions.
                                                                                              outputs.


                                                                                                                                                                                       Cost–outcome measures that
  Financial Resources That are
                                                                                                                                                                                       relate efforts to the outcomes
  Put into a Program or Process                                                       Output                                                                                                or results of services
                                                                                     Measures


  Non-Financial Resources That                                                                                                                     Outcome                               Efficiency Measures That
     Are Put Into A Program                                                                                                                        Measures                              Relate Efforts To Outputs
          Or Process                                                                                                                                                                             Of Services

                                                                                                                                         These indicators measure
                                                  Quantity of a Service                                                                  accomplishments or results that occur (at
                                                  Provided that Meets a                              Quantity of a Service               least partially) because of services
                                                     Certain Quality                                      Provided                       provided. Results also include measures
                                                                                                                                         of public perceptions of outcomes. For
                                                     Requirements                                                                        example, measures may include the
                                                                                                                                         percentage of students achieving a
                                                                                                                                         specified skill-level gain in reading; the
                                      These indicators measure the physical quantity of          These indicators measure the
                                                                                                                                         percentage of the population being served
                                      a service provided that meets a test of quality. For       physical quantity of a service
                                                                                                                                         by public transportation; the percentage of
                                      example, measures may include the percentage of            provided. For example, measures
                                                                                                                                         lane-miles of road in excellent, good, or
                                      students graduated or promoted who have met a              may include the number of
                                                                                                                                         fair condition; and the clearance rate for
                                      minimum prespecified standard of achievement;              students promoted or graduated;
                                                                                                                                         serious crimes or the percentage of
                                      the percentage of buses meeting a prespecified             the number of passenger miles
                                                                                                                                         residents rating their neighborhood as
                                      on-time standard of achievement; the percentage            provided by public transit; the
                                                                                                                                         safe or very safe.
                                      of lane-miles of road repaired to a certain minimum        number of lane-miles of road
                                      satisfactory condition; and the percentage of              repaired; and the number of crimes                        Adapted from GPRA, GASB Concept No. 2, and the
                                      criminal investigations performed that result in the       investigated.                                           "Performance Measurement for Government" web site at
                                      identification of prime suspect.                                                                                                    Rutgers University
                                                                                                                                                         www.rutgers.edu/Accounting/raw/seagov/pmg/index.html
                           DISTRIBUTION SCHEDULE

                                                                         No. of
                                                                         Copies

Commissioner of Social Security                                            1
Management Analysis and Audit Program Support Staff, OFAM                 10
Inspector General                                                          1
Assistant Inspector General for Investigations                             1
Assistant Inspector General for Executive Operations                       3
Assistant Inspector General for Audit                                      1
Deputy Assistant Inspector General for Audit                               1
 Director, Data Analysis and Technology Audit Division                     1
 Director, Financial Audit Division                                        1
 Director, Western Audit Division                                          1
 Director, Southern Audit Division                                         1
 Director, Northern Audit Division                                         1
 Director, General Management Audit Division                               1
Issue Area Team Leaders                                                   25
Income Maintenance Branch, Office of Management and Budget                 1
Chairman, Committee on Ways and Means                                      1
Ranking Minority Member, Committee on Ways and Means                       1
Chief of Staff, Committee on Ways and Means                                1
Chairman, Subcommittee on Social Security                                  2
Ranking Minority Member, Subcommittee on Social Security                   1
Majority Staff Director, Subcommittee on Social Security                   2
Minority Staff Director, Subcommittee on Social Security                   2
Chairman, Subcommittee on Human Resources                                  1
Ranking Minority Member, Subcommittee on Human Resources                   1
Chairman, Committee on Budget, House of Representatives                    1
Ranking Minority Member, Committee on Budget, House of Representatives     1
Chairman, Committee on Government Reform and Oversight                     1
Ranking Minority Member, Committee on Government Reform and Oversight      1
Chairman, Committee on Governmental Affairs                                1
Ranking Minority Member, Committee on Governmental Affairs                 1
                                                                             Page 2

Chairman, Committee on Appropriations, House of Representatives                1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Committee on Appropriations, U.S. Senate              1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                   1
Chairman, Committee on Finance                                                 1
Ranking Minority Member, Committee on Finance                                  1
Chairman, Subcommittee on Social Security and Family Policy                    1
Ranking Minority Member, Subcommittee on Social Security and Family Policy     1
Chairman, Senate Special Committee on Aging                                    1
Ranking Minority Member, Senate Special Committee on Aging                     1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                               1
President, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Social Security Advisory Board                                                 1
AFGE General Committee                                                         9
President, Federal Managers Association                                        1
Regional Public Affairs Officer                                                1


Total                                                                         97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees,third
parties, and by SSA employees in the performance of their duties. Or also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA ' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
